1
every government procurement system in real time and serves as the central repository of
statistical information on federal contracting, containing detailed information on contract actions
of more than $2,500. In May 2003, GSA awarded Global Computer Enterprises, Inc. a $24
million seven-year fixed price contract with performance incentives to develop and maintain a
new Federal acquisition database for the FPDS-NG system. In June 2004, responsibility for
managing the FPDS-NG was transferred within GSA from the Office of Governmentwide Policy
(OGP) to the OCAO.

Objectives, Scope, and Methodology

Our audit objectives were to determine whether GSA is effectively managing the development
and implementation of the FPDS-NG to: (1) improve system functionality and usability; (2)
provide necessary system security controls; (3) ensure timely and accurate procurement data; and
(4) meet customers' reporting requirements at a reasonable cost. If not, what changes are needed
to ensure the success of the FPDS-NG system?

Our review assessed FPDS-NG data accuracy and completeness, project management, reporting
availability, and system controls. To perform our review of the FPDS-NG system, we met with
appropriate officials within OGP and the OCAO. To review data accuracy and completeness, we
reviewed a sample of GSA contracts from the FPDS-NG to compare system data to the official
contract files. We also interviewed system users within OGP, the Federal Supply Service (FSS),
the Public Buildings Service (PBS), and the Federal Technology Service (FTS).1 We met with
GSA system users from FTS Central Office, Region 1 and Region 11; PBS Central Office,
Region 1 and Region 11; and FSS Central Office. We also attended Change Control Board
(CCB) meetings and monitored CCB activities pertaining to FPDS-NG. Our review did not
include a detailed assessment of data submissions from other Federal agencies.

To analyze system functionality and project management, we interviewed contract personnel
including the project manager, system architect and developers, and security officials. To gain
an understanding of the FPDS-NG contract, we met with the contracting officer and the
contracting officer’s technical representative. We analyzed the FPDS-NG contract No.
GS00M03PDC0004 including system requirements established with the contract and
corresponding modifications to the contract.

System security controls were assessed in conjunction with our annual FY 2004 FISMA review
and reported in our September 27, 2004 report. Detailed findings for vulnerability scan results
and specific FISMA control weaknesses for the FPDS-NG were previously provided in the FY
2004 Office of Inspector General Information Security Review of The Federal Procurement Data
System - Next Generation, Report Number A040179/O/T/F05013, January 11, 2005, to the GSA
Chief Information Officer (CIO) and FPDS-NG management. In conjunction with the FISMA
review, we evaluated the FPDS-NG risk assessment, security plan, system testing and evaluation
results, certification and accreditation letters, contingency plan, and plan of action and
milestones. We reviewed GSA’s agency-wide Information Technology (IT) Security Policy and


1
 A pending GSA reorganization established the new Federal Acquisition Service (FAS), which consolidated FSS
and FTS.

                                                      2
procedures and guidelines including GSA Order CIO Handbook 2100.1A2, GSA Information
Technology (IT) Security Policy, January 13, 2003; GSA Order CPO 1878.2, Conducting
Privacy Impact Assessments (PIAs) in GSA, May 28, 2004; and GSA CIO-IT Security-02-21 IT
Security Procedural Guide, Linux Red Hat Hardening, August 30, 2002. We also relied on
applicable regulations and policies to assess FPDS-NG, including: Office of Management and
Budget (OMB) Circular No. A-130 Revised, Appendix III, Security of Federal Automated
Information Resources, November 2000; Federal Information Security Management Act, Title
III, December 2002; Federal Acquisition Regulation, Subpart 4.6-Contract Reporting, April 22,
2004; and General Accounting Office (GAO)3 Letter, Reliability of Federal Procurement Data,
December 30, 2003. To obtain information on commonly accepted security principles, we relied
on the National Institute of Standards and Technology Special Publication 800 series security
guidelines.

We performed our audit review work in calendar year 2004 and monitored FPDS-NG CCB
activities through December 2005. Audit work was performed in accordance with generally
accepted government auditing standards.

Results of Audit

The FPDS-NG is critical to Federal efforts to improve the collection and reporting of accurate
and complete procurement data. However, certain contract and system requirements have not
been addressed due to insufficient contract monitoring throughout the development and
implementation of the system. Further, some key reports cannot yet be provided for system
users. Improved oversight is an important step toward ensuring that contract and system
requirements for FPDS-NG have been followed and implemented. Further, maintaining
complete and accurate data within FPDS-NG is critical for producing necessary procurement
reports. Our review of a selected sample of GSA’s contracts found discrepancies for some data
elements in the system and raises concerns about the reliability of data already contained in the
new system. System-specific security risks, including: the need to integrate security costs into
the life cycle of the system, background checks for contractors supporting FPDS-NG, and the
need to develop a more comprehensive approach to monitoring risks with the system need to be
addressed. Strengthening management, operational, and technical controls for FPDS-NG will
promote user satisfaction and long-term success for this important system. Another important
issue is meeting customers' reporting requirements at a reasonable cost. At this time, FPDS-NG
standard reports and ad hoc reports are free and organizations or citizens who want to access the
raw data within the system are charged a one-time fee of $2,500.

Improvements Needed For Communicating Contract and System Requirements

Requirements for system security and functionality were not always effectively communicated
by GSA to the FPDS-NG contractor. An operational system was to be provided by the
contractor on October 1, 2003, with all remaining development services to be provided no later
than January 23, 2004. However, an inadequate level of communication between GSA and the
contractor has resulted in specific system contract requirements not being available and led to

2
    CIO Handbook 2100.1A, January 2003, has been replaced by CIO Handbook 2100.1 B, November 5, 2004.
3
    The GAO's legal name was changed to the Government Accountability Office on July 7, 2004.

                                                     3
problems with the system. For instance, the FPDS-NG contract specifies a list of 33 sample
reports be developed for the system. However, one report named “Top 100 Contracts,” was not
provided to the contractor as stated in the contract. The “Top 100 Contracts” report is
categorized as a General Summary Report which displays the largest transaction dollar actions in
descending order for a specified award date period, with agency and contract information, dollar
amounts, and contractor name. Each Contract Number (and Order Number, if present) should
link to the Contract Lifecycle Report. Further, while the contractor received a financial incentive
for delivering the system on October 1, 2003, system functionality required by the contract, such
as the 29 validation rules required by the Department of Defense (DoD), were not completed on
the delivery and acceptance of the system. These validation rules were to be completed within
14 calendar days after GSA delivered DoD clarifications. Due to the missing components, the
incentive amount was reduced from $393,369 to $363,000 through an agreement between GSA
and the contractor. At the time of our 2004 FISMA review, the contractor had also not yet been
provided with all applicable GSA security policies and procedures needed for FPDS-NG’s
development. While GSA officials did not communicate these contract requirements to the
contractor, no attempts were made by the contractor to request the necessary policies and
procedures from GSA. Although the FPDS-NG contract requires system developers to follow
the GSA IT Security Policy, the system was not in compliance with GSA security policy. Such
conditions indicate a need to improve the process for conveying information between GSA and
the contractor to better ensure that system requirements are effectively communicated and met
with the new system.

Discrepancies Found in FPDS-NG Data Elements

Our analysis of 39 GSA contracts, including a comparison of migrated FY 2003 and FY 2004
data to actual contract files maintained by authorized contracting personnel, found discrepancies
between FPDS-NG data elements and required formats for the system. These discrepancies have
caused problems in finding historical procurement data migrated from FPDS into FPDS-NG.
Instances of incomplete data included contractor mailing address and socio economic data for
identifying veteran owned, women owned, minority owned businesses, etc. The following table
highlights specific discrepancies we identified for the system’s data elements:

     Table 1: Discrepancies Between FPDS-NG Data Elements and the FAR Requirements4
                Data Element                                            Discrepancies
      Procurement Instrument Identifier
      (PIID)                                  Prefix in front of award ID
      Dates                                   Date in the middle column systemically assigned "15"
      Contractor Information                  Incomplete*
      Socio Economic Data                     Incomplete*
      * Data in the Central Contractor Registration (CCR) was either incomplete or the data was not fully
      populated in FPDS-NG.




4
    Federal Acquisition Regulation (FAR), section 4.6 - Contract Reporting.




                                                           4
Such formatting discrepancies have led to historical procurement data contained in FPDS that
could not be found in FPDS-NG and PIID problems, such as structure and changes, with the
system. GSA users of the system have encountered difficulties with contracts migrated from the
old system to FPDS-NG in three main areas: (1) updating socio-economic data; (2) posting
contract modifications within FPDS-NG; and (3) the PIID number structure/format change.
Because of discrepancies in the FPDS-NG data elements, users could not readily retrieve
information from the system and other time-consuming measures were sometimes necessary to
obtain the needed information.

GSA system users we spoke to also revealed that some base contracts and related modifications
that had been previously recorded in the old system could not be located in FPDS-NG, forcing
them to manually recreate the missing base contract and related modifications to accurately
reflect the dollar amounts obligated and/or de-obligated. Other Federal agencies including: the
Department of Education, Department of Housing and Urban Development, and Environmental
Protection Agency, have encountered problems locating data and discrepancies between the old
system and the new system. Problems have also been identified with the accuracy of Central
Contractor Registration (CCR) data within FPDS-NG and voided contracts in FPDS-NG that
have not been deleted. Users have also reported problems in locating the Data Universal
Numbering System (DUNS) numbers in the CCR. The CCR collects, validates, stores and
disseminates data in support of agency acquisition missions and provides the primary vendor
database for the Federal Government through FPDS-NG. As GSA continues to manage the
implementation of FPDS-NG, project management and contract personnel need to take steps to
resolve data element discrepancies that could hinder effective use of the system.

System Security Control Weaknesses Require Attention

Security weaknesses identified during the FY 2004 Federal Information Security Management
Act (FISMA) review raised questions regarding the adequacy of the system Certification and
Accreditation (C&A) for FPDS-NG controls. We found that GSA IT security officials, including
the Information System Security Manager (ISSM) and the Information System Security Officer
(ISSO), had not adequately overseen the security practices of the contractor supporting FPDS-
NG, and the contractor was not complying with the GSA IT Security Policy as required by the
FPDS-NG contract. While a system security C&A was issued for the system in March 2004, we
identified several areas of risk that require management attention in order to meet FISMA
requirements and implement GSA’s IT Security Program guidance for FPDS-NG. Specifically,
the system C&A documentation did not include critical steps necessary to comprehensively
address risks as recommended by the National Institute of Standards and Technology and the
GSA Chief Information Officer. The system risk assessment did not include a business impact
analysis as required and system technical security guidelines required by GSA’s CIO had not
been applied to the system. Sentence is redacted pursuant to Exemption 2 of the Freedom of
Information Act (FOIA), 5 United States Code (U.S.C.) § 552(b)(2). Further, the system-level
Plan of Action and Milestones (POA&M) for FPDS-NG was not being utilized to mitigate
known security weaknesses with the system as required by FISMA. Specifically, security
weaknesses, identified through the C&A process, were not being tracked in the system level
POA&M as required. As such, it was unclear as to how risk was being managed for the system.



                                              5
Security costs were also not integrated into the life cycle of the system as required5 and the
FPDS-NG contractor was not reporting potential security incidents to the Senior Agency
Information Security Officer for GSA. We also observed that contractors supporting system
operations were granted access to the hardware and operating system software before required
background checks had been completed. Compensating controls to mitigate associated risks,
such as criminal record checks, greater oversight of contractors, monitoring of detailed audits
logs, and obtaining the contractor’s internal background investigation and employment history
record, were not in place. Due to the critical nature of this important government-wide system,
GSA should take additional steps to ensure weaknesses with FPDS-NG managerial, operational,
and technical controls are addressed and corrective actions are implemented.

Recommendations

We recommend that the GSA’s CAO work with the appropriate FPDS-NG management officials
and contract personnel to improve the effectiveness of project management by:

1. More closely overseeing that contract and system requirements are effectively documented
   and communicated in a timely manner to the contractor.

2. Resolving all data element discrepancies and data migration issues.

3. Ensuring that system security weaknesses and corrective actions are continually addressed.


Management Response

We met with the Office of the Chief Acquisition Officer (OCAO) to discuss the results of our
review and to confirm our audit findings on January 25, 2006. This report reflects management
comments provided on two separate discussion draft reports that were developed since May 11,
2005.     While management has generally concurred with the findings and the three
recommendations as presented in the report, written comments provided by the CAO highlight
specific actions underway aimed at addressing the identified areas of risk in the report since the
completion of our FPDS-NG review last year. Planned or ongoing management actions
identified by the CAO include: (1) improving communication and documentation of efforts with
the contractor, (2) conducting routine bi-weekly meetings with the contractor, (3) recognizing
that data quality is extremely important to the success of FPDS-NG, therefore it is critical to
mine the data and produce useful reports, (4) continuing to improve security controls including
on-going scans of the system to address vulnerabilities, and (5) enhancing system reporting
capabilities. While these actions should improve risk areas in the report, we feel the actions
identified by the OCAO support the findings and recommendations documented during the time
of our review.

A copy of the management comments is provided in its entirety in Appendix A.



5
    OMB Circular A-11, Preparation, Submission and Execution of the Budget, Section 53 (Revised 07/16/2004).

                                                        6
Internal Controls

As discussed in the Objectives, Scope, and Methodology section of this report, the objectives of
our review were to determine whether GSA is effectively managing the development and
implementation of FPDS-NG to: (1) improve system functionality and usability; (2) provide
necessary system security controls; (3) ensure timely and accurate procurement data; and (4)
meet customers’ reporting requirements at a reasonable cost. We analyzed the accuracy and
completeness of the system data, project management, functionality, and controls. The Results
of Audit and Recommendations sections of this report identify the need to strengthen specific
managerial, operational, and technical controls for FPDS-NG. The scope of our audit did not
include a detailed analysis of all data within FPDS-NG, nor did we complete a detailed review of
contractual practices used for the system.




                                               7
  REVIEW OF THE FEDERAL PROCUREMENT
DATA SYSTEM – NEXT GENERATION (FPDS-NG)
    REPORT NUMBER A040127/O/T/F06016

    CAO RESPONSE TO DRAFT REPORT




           A-1
A-2
A-3
A-4
A-5
A-6
A-7
                       REVIEW OF THE FEDERAL PROCUREMENT
                     DATA SYSTEM – NEXT GENERATION (FPDS-NG)
                         REPORT NUMBER A040127/O/T/F06016

                                  REPORT DISTRIBUTION

                                                                   Copies

Chief Acquisition Officer (V)                                        3

Deputy Chief Acquisition Officer (VA)                                1

Office of Acquisition Systems (VS)                                   2

Acting Commissioner, Federal Acquisition Service (FAS)               1

Commissioner, Public Buildings Service, (P)                          1

Chief Information Officer (I)                                        2

Audit Follow-up and Evaluation Branch (BECA)                         1

Assistant Inspector General for Auditing (JA and JAO)                2

Administration and Data Systems Staff (JAS)                          1

Assistant Inspector General for Investigations (JI)                  1

Regional Inspector General for Investigations (JI-W)                 1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                      B-1
